             Office of Inspector General




May 13, 2005

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Electronic Data Systems Contract Invoice Approval
         Procedures (Report Number CA-AR-05-002)

This report presents the results of our self-initiated audit of Electronic Data Systems
(EDS) Contract Invoice Approval Procedures (Project Number 04XG012CA000).

                                                 Background

The Postal Service issued a fixed-price delivery order on December 7, 2001, under the
EDS Preferred Portfolio Partnering ordering agreement. The purpose of this delivery
order was to establish the Help Desk at the Distributed Systems Service Center in
Raleigh, North Carolina. The Help Desk subsequently moved to Winchester, Kentucky
(September 2002) and Lansing, Michigan (April 2003). It currently operates in these
two locations.

The Help Desk provides Postal Service employees nationwide with information
technology (IT) support services. The cost of each contact1 for a desktop problem is
XXXXX. Help Desk technicians log clients’ calls into the Postal Service’s Remedy
system, an automated trouble-ticket2 management system. Help Desk-generated
tickets are classified as Tier I, which includes identifying and analyzing the problem,
fixing the problem, arranging for on-site support, and working with external vendors
when equipment is under warranty and covered by support contracts. On average,
EDS billed the Postal Service for approximately XXXXX tickets monthly at a cost of
XXXXXXXX.3




1
  The contract defines a “contact” as a notification to the Help Desk via inbound toll-free telephone call, automated
alert, voice mail, facsimile, e-mail, or Web-generated request.
2
  Trouble-tickets are records of Help Desk contacts. Each ticket includes detailed information, such as the date and
time of the ticket creation, the client’s name and telephone number, a description of the problem, and the Help Desk
technician’s name.
3
  For the period of February 2002 through September 2004.

    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Electronic Data Systems                                                          CA-AR-05-002
 Contract Invoice Approval Procedures


                        Objectives, Scope, and Methodology
Our audit objective was to determine whether the Postal Service procedures for
reviewing, certifying, and paying EDS invoices were adequate. Additionally, on our
behalf, the Defense Contract Audit Agency (DCAA) reviewed EDS’s internal control
procedures for processing Postal Service invoices and evaluated whether invoices were
supported by Help Desk tickets.

To accomplish our audit objective, we reviewed the contract, contract modifications, and
applicable criteria in the Postal Service’s Purchasing Manual. In addition, we
interviewed the contracting officer’s representative (COR) and Postal Service personnel
from the IT Help Desk and the San Mateo Accounting Service Center. We also
interviewed EDS officials.

We performed an analysis of tickets billed from January 1, 2004, through September 30,
2004, to identify instances where it appeared one contact generated multiple tickets. To
perform the analysis, we relied on computer-processed data contained in the Remedy
system. For the period tested, we matched billed tickets to the data in the Remedy
system. We believe that the data was sufficiently reliable to form our conclusions and
recommendations.

This audit was conducted from August 2004 through May 2005 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
observations and conclusions with appropriate management officials and included their
comments where appropriate.

                                   Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit.

                                         Results
Postal Service officials could improve procedures for reviewing, certifying, and paying
EDS invoices. Specifically, the COR certified invoices for payment without determining
if billed tickets were valid and in accordance with the contract. This occurred because
the contract did not require EDS to provide detailed documentation of billed tickets with
invoices. In addition, Postal Service officials did not ensure that adequate data was
captured and maintained to allow a comprehensive analysis of billed tickets. As a
result, Postal Service officials did not have adequate assurance that contract payments
were made in accordance with the terms and conditions of the contract. Our analysis of
billed tickets identified multiple tickets that appeared to be billed outside of the contract
terms.




                                              2
Electronic Data Systems                                                         CA-AR-05-002
 Contract Invoice Approval Procedures


Opportunities to Improve Invoice Processing

The COR certified invoices for payment without determining if billed tickets were valid
and in accordance with the contract. Specifically, the COR stated he compared
summary data4 included with the invoice to prior months’ invoices to identify obvious
anomalies. However, this review was not sufficient to establish whether tickets were
properly billed.

The Purchasing Manual, Chapter 5.2.3.a., January 31, 1997 (updated with Postal
Bulletin revisions through November 15, 2001) states that, to be allowed, costs must be
consistent with the requirements and terms and conditions of the contract. The contract
states that EDS will be reimbursed XXXXXX for each contact that results in a billable
ticket. In addition, the COR designation letter requires the COR to verify invoices and
promptly certify them for payment. The letter also requires the COR to review
information to evaluate contract payments, including reviewing reports on costs incurred
to determine that quality and quantity of materials/services were provided and met
contractual requirements. The COR did not perform comprehensive reviews of invoices
because the contract did not require EDS to provide detailed documentation of billed
tickets with invoices.

In addition, the Remedy system did not capture the contact time, which would aid in
analyzing whether tickets were billed in accordance with the contract. For example,
contact time is essential in determining if only one billed ticket was generated from each
contact. Postal Service officials did not foresee a need for this data when the contract
was awarded.

Additionally, EDS did not maintain adequate supporting documentation in accordance
with the contract to allow for validation of prior years’ billed tickets. Records in the
Remedy system are purged after one year and EDS did not maintain complete billed
ticket data for prior years. For example, EDS’s historical supporting documentation did
not include the names and phone numbers of the persons contacting the Help Desk.
Retaining this information is critical to verifying that tickets were billed in accordance
with the contract. The contract requires that electronic or hard copy records, as
appropriate, will be retained for validation for three years after the contract ends. Postal
Service officials had not previously requested historical detailed billed ticket data from
EDS and were not aware that EDS was not maintaining data in accordance with the
contract.




4
    A list of the number of billed tickets by program area and contact type.




                                                              3
Electronic Data Systems                                                                               CA-AR-05-002
 Contract Invoice Approval Procedures


Analysis of Billed Ticket Documentation

Our analysis5 of the XXXXXXX tickets billed from January through September 2004
identified XXXXXXXXXX that appeared to be billed outside of the contract terms. We
could not determine whether all multiple tickets resulted from one contact because, as
noted previously, Postal Service officials did not require EDS to keep a record of contact
time. We discussed the results of our analysis with Postal Service officials, who agreed
that the additional tickets may have been inappropriately billed. They indicated they will
use the audit results to negotiate a recovery of cost from EDS. We will report the
XXXXXXXX in questioned costs in our Semiannual Report to Congress (see Appendix
A).

Recommendations

We recommend the vice president, Supply Management, instruct the contracting officer
to:

    1. Require EDS to submit detailed supporting documentation with invoices.

    2. Develop and implement procedures for determining if tickets are valid and billed
       in accordance with the contract terms and conditions. For example, develop and
       implement procedures for identifying multiple billed tickets generated from
       one contact.

    3. Coordinate with the manager, Information Technology Corporate Help Desk, to
       capture contact time and require EDS to enter contact time when creating Help
       Desk tickets.

    4. Require EDS to maintain historical billable ticket data to allow for validation of
       prior year billed tickets.

    5. Use the results of our analysis of potential instances of multiple tickets generated
       from one contact to negotiate a recovery of questioned cost.

Management’s Comments

Management agreed with the recommendations and will consult with the audit team and
EDS officials to determine the most appropriate corrective actions to address the
recommendations. Management will hold discussions with EDS officials to resolve the
questioned costs. Management will complete implementation of the corrective actions
by the end of fiscal year 2005. Management’s comments, in their entirety, are included
in Appendix B of this report.

5
 We obtained billed ticket numbers from EDS and extracted detailed ticket data from the Remedy system. We
analyzed the data to identify multiple tickets generated on the same day, for the same client, showing the same
problem. We allowed one billable ticket for the instances identified.




                                                          4
Electronic Data Systems                                                       CA-AR-05-002
 Contract Invoice Approval Procedures



Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and actions planned
should correct the issues identified in the finding.

                                        Other Matter
The DCAA review of the EDS billing system disclosed that EDS had a weakness in their
internal control procedures for processing Postal Service contract billings. Specifically,
EDS did not follow their stated policies and procedures to review the billing system
annually and sample and test invoices periodically. EDS agreed to take corrective
action.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Matthew Hartshorn, Acting
Director, Supply Management, or me at (703) 248-2300.

/s/ John M. Seeba

John M. Seeba
Deputy Assistant Inspector General for Financial Operations

Attachments

cc: Richard J. Strasser, Jr.
    Robert L. Otto
    Sam Schmidt
    Steven R. Phelps




                                             5
Electronic Data Systems                                                                          CA-AR-05-002
 Contract Invoice Approval Procedures



                       APPENDIX A. QUESTIONED BILLED TICKETS



                                 Billed
                              Tickets Per           Questioned             Price Per Questioned
      Month/Year                Invoice              Tickets6              Contact     Costs
    January 2004                   XXXXX                   XXXX               XXXXX    XXXXXX
    February 2004                  XXXXX                   XXXX               XXXXX     XXXXX
    March 2004                     XXXXX                   XXXX                 XXXX    XXXXX
    April 2004                     XXXXX                   XXXX                 XXXX    XXXXX
    May 2004                       XXXXX                   XXXX                 XXXX    XXXXX
    June 2004                      XXXXX                   XXXX                 XXXX   XXXXXX
    July 2004                      XXXXX                   XXXX                 XXXX   XXXXXX
    August 2004                    XXXXX                   XXXX                 XXXX   XXXXXX
    September 2004                 XXXXX                   XXXX                 XXXX    XXXXX
          TOTAL                   XXXXXX                    XXXXX                 XXXX       XXXXXX


NOTE

QUESTIONED COSTS – A cost that is unnecessary, unreasonable, unsupported, or an
alleged violation of law, regulation, contract, etc.




6
    Questioned tickets are those that appeared to be billed outside of the contract terms.


                                                              6
Electronic Data Systems                               CA-AR-05-002
 Contract Invoice Approval Procedures


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                        7
